No. 19-715, 19-760

 

IN THE
Supreme Court of the United States

DONALD J. TRUMP, ET AL.,

Petitioners,
ve
Mazars USA, LLP, ET AL.,
Respondents.
DONALD J. TRUMP, ET AL.,
Petitioners,
Vv.
DEUTSCHE BANK AG, ET AL.,
Respondents.

CERTIFICATE OF SERVICE

 

I, Ashwin P. Phatak, do hereby declare that on March 4, 2020, as required by
Supreme Court Rule 29.5, I have served by first-class mail, postage pre-paid, the Brief
of Constitutional Accountability Center as Amicus Curiae in Support of Respondents

on counsel for each party to the above proceeding as follows:

William Spencer Consovoy Jerry D. Bernstein

Consovoy McCarthy PLLC Blank Rome LLP

1600 Wilson Boulevard 1271 Avenue of the Americas
Suite 700 New York, NY 10020
Arlington, VA 22209 jbernstein@blankrome.com
will@consovoymccarthy.com 212-885-5511

703-243-9423

Counsel of Record for Respondents,
Counsel of Record for Petitioners in Mazars USA, LLP
Mazars
Douglas Neal Letter

Office of General Counsel, U.S. House
of Representatives

219 Cannon House office Building
Washington, DC 20515
douglas.letter@mail.house.gov
202-225-9700

Counsel of Record for Respondents,
Committee on Oversight and Reform of
the U.S. House of Representatives

Pratik Arvind Shah

Akin Gump Strauss Hauer & Feld, LLP
201 K Street N.W.

Washington, DC 20006
pshah@akingump.com

202-887-4210

Counsel of Record for Respondents,
Deutsche Bank AG

Noel J. Francisco

Solicitor General

United States Department of Justice
950 Pennsylvania Ave., NW
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov

Counsel of Record for the U.S. as
Amicus Curiae Supporting Petitioners

James Alwin Murphy

Murphy & McGonigle, P.C.

1185 Avenue of the Americas, Floor 21
New York, NY 23219
jmurphy@mmlawus.com

212-880-3968

Counsel of Record for Respondents,
Capital One Financial Corporation

Patrick Strawbridge

Consovoy McCarthy PLLC

Ten Post Office Square

8th Floor South PMB #706
Boston, MA 02109
patrick@consovoymcecarthy.com
207-522-3163

Counsel of Record for Petitioners in
Deutsche Bank AG

I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 4, 2020.

Ashwin P. Phatak
Counsel for Amicus Curiae
